October 6, 2014

MEMORANDUM FOR:           DAVID E. WILLIAMS, JR.
                          VICE PRESIDENT, NETWORK OPERATIONS




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations


SUBJECT:                  Management Alert – Lack of Service Standard Change
                          Information in Area Mail Processing Feasibility Studies
                          (Report Number NO-MA-15-001)

This management alert presents our concerns with the Lack of Service Standard
Change Information in Area Mail Processing Feasibility Studies (Project Number
14XG036NO001). The issue came to our attention during our audit of Area Mail
Processing Consolidations (Project Number 14XG036NO000).

If you have any questions or need additional information, please contact James L.
Ballard, director, Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Lack of Service Standard Change Information in Area
 Mail Processing Feasibility Studies                                                         NO-MA-15-001


Introduction

On June 30, 2014, the postmaster general announced the U.S. Postal Service’s plans
to implement Phase 2 of the Network Rationalization Initiatives (NRI) by consolidating
up to 82 facilities starting in January 2015. Specifically, the Postal Service completed
Area Mail Processing (AMP)1 feasibility studies to move mail processing operations
from 79 facilities to 95 existing facilities. This alert is to bring to your attention the need
to complete and evaluate the service standard2 impacts portions of the feasibility studies
prepared for the Phase 2 consolidations.

In the summer of 2012, the Postal Service executed Phase 1 of its NRI and announced
its intention to implement revised service standards for market-dominant mail products3
on February 1, 2014. On January 24, 2014, the Postal Service postponed implementing
the revised service standards and on August 1, 2014, announced the revised service
standards for market-dominant mail products associated with Phase 2 of the NRI will be
effective January 5, 2015.

Postal Service officials testified before the U.S. Postal Regulatory Commission (PRC)
that it was necessary to relax service standards, stating that the planned revisions
would eliminate the availability of overnight service for a large portion of First-Class Mail
and Periodicals. Management planned to shift mail no longer eligible for overnight
service to a 2-day service standard and defer a substantial portion of mail currently
subject to the 2-day standard to a 3-day standard. Furthermore, the revisions would
allow for significant consolidation of the Postal Service’s processing and transportation
networks, resulting in an infrastructure that better matches current and projected mail
volumes, while achieving significant cost savings.

Conclusion

The Postal Service has not analyzed the impact of planned service standard changes or
informed stakeholders of the changes related to Phase 2 consolidations. Specifically,
management did not complete the service standard impacts worksheet in 91 of the 95
AMP feasibility studies. The other four feasibility studies did not include updated service
standard changes in the service standard impacts worksheet (see Appendix A). The
worksheet should detail the upgrades and downgrades between 3-digit ZIP Codes4 by
class of mail5 and volume.
1
  The consolidation of all originating and/or designating distribution operations from one or more Post Office/facility
into other automated processing facilities to improve operational efficiency and/or service. Three of the 82 Phase 2
consolidations did not require an AMP feasibility study because they are either an annex or a delivery distribution
center (DDC). The three facilities are the Fayetteville, NC, and Jet Cove, TN, annexes; and the Seattle, WA, DDC.
2
  The stated goal for service achievement for each mail class.
3
  First-Class letters, sealed parcels, cards, Periodicals, Standard Mail, single-piece Parcel Post, Media Mail, Bound
Printed Matter, Library Mail, special services, and single-piece international mail.
4
  A presort level in which all pieces in the bundle or container are addressed for delivery within the same first three
digits of a 5-digit ZIP Code area.
5
  The classification of domestic mail according to content (e.g., personal correspondence versus print advertising)
and other factors.
                                                              1
Lack of Service Standard Change Information in Area
 Mail Processing Feasibility Studies                                                 NO-MA-15-001



The first objective of an AMP feasibility study is to evaluate service standard impacts for
all classes of mail.6 The Postal Accountability and Enhancement Act,7 which was
enacted on December 20, 2006, impacts the feasibility study process. The Postal
Service must:

   Provide adequate public notice to communities affected by a proposed network
    rationalization decision.

   Make available information about any service changes in the affected communities,
    any affects on customers or Postal Service employees, and any cost savings.

   Afford affected persons ample opportunity to provide input on the proposed decision.

   Take public comments into account in making a final decision.8

The Postal Service did not complete the service standard impacts worksheets because
the revised service standards for market-dominant mail products associated with Phase
2 of the NRI had not been finalized when the Postal Service conducted the AMP
feasibility studies. A Postal Service official said that, as of August 20, 2014, the analysis
required to complete the service standard impacts worksheets was not completed and
the Postal Service anticipates publishing the worksheets online (www.usps.com) in the
beginning of calendar year 2015, at the same time the consolidations are scheduled to
begin.

Without completing and disclosing the analysis of planned service standard changes the
Postal Service may experience:

   Degradation of service to communities, including delayed mail.

   Carriers delivering mail after 5 p.m. because of unexpected workload.

   Customer dissatisfaction, which could harm the Postal Service’s brand and affect
    future revenue.

Moreover, completing the feasibility studies based on the revised service standards will
allow the Postal Service to accurately assess the reasonableness of the consolidations,
determine their impact on customers, better communicate the AMP results, and improve
the probability of successful consolidations.




6
  Handbook PO-408, Area Mail Processing Guidelines, Section 2-1, Purpose, dated March 2008.
7
  Public Law 109-435.
8
  Handbook PO-408, Section 4-3, Postal Service Accountability and Enhancement Act, dated March 2008.

                                                      2
Lack of Service Standard Change Information in Area
 Mail Processing Feasibility Studies                                 NO-MA-15-001



Recommendation

We recommend the vice president, Network Operations:

1. Complete the service standard impacts worksheet in all of the Area Mail Processing
   feasibility studies for Phase 2 Network Rationalization Initiatives scheduled to begin
   January 5, 2015, and evaluate the impacts that revised standards will have on each
   affected community before implementing the consolidations.

Management’s Comments

Management partially agreed with the recommendation and, regarding the finding,
stated that service standard impacts information is ordinarily included in individual AMP
final decision packages. However, management made NRI consolidation decisions
during the proposal period for changing mail service standards for market-dominant
products, therefore each AMP package they approved during this time included
language necessary to provide transparency. Management disagreed that failure to
complete and disclose the analysis of planned service standard changes may have a
negative effect on delivery service quality.

Management agreed to compute the service standard impacts using the January 5,
2015 standards as the starting point prior to beginning the consolidations on January
10, 2015.

See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation.

Regarding management’s assertion that each AMP package approved during a specific
period included language necessary to provide transparency, we agree that the majority
of AMP feasibility studies include this language. However, the language did not provide
sufficient transparency because the feasibility studies do not include details necessary
to evaluate the service standard impacts for all classes of mail and the public did not
have an opportunity to review the impacts and provide comments prior to the studies
being approved. As stated in the alert, Postal Service policy states that the first
objective of an AMP feasibility study is to evaluate service standard impacts for all
classes of mail. Policy also requires the Postal Service to make information about any
service changes in the affected communities available and take public comments into
account when making a final decision.

Regarding management’s assertion that incomplete analysis of planned service
standard changes prior to consolidation will not have a negative effect on delivery
service quality, our past audit work has shown that is not the case.

                                                      3
Lack of Service Standard Change Information in Area
 Mail Processing Feasibility Studies                                                    NO-MA-15-001



For example:

   We reported that, while there was a valid business case for consolidating the Lima,
    OH, Processing and Distribution Facility (P&DF) into the Toledo, OH, Processing
    and Distribution Center (P&DC), management did not ensure improvement or
    maintenance of on-time performance and customer service during the
    consolidation.9

   We reported that, while a business case existed to support the originating mail
    consolidation from the Huntsville, AL, P&DF into the Birmingham, AL, P&DC and the
    Postal Service generally followed AMP guidelines, we found nearly 70 percent of
    carriers were delivering mail after 5 p.m., which was a significant increase compared
    to pre-consolidation levels.10

Therefore, we believe it is critical that management complete and evaluate service
standard impacts worksheets before implementing consolidations to ensure there is no
negative impact on delivery service quality.

The OIG considers the recommendation significant, and therefore requires concurrence
before closure. Consequently, the OIG requests written confirmation when corrective
actions are completed. The recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




9
  Implementation of Lima, OH to Toledo, OH Area Mail Processing Consolidation (Report Number EN-AR-11-004,
dated March 31, 2011).
10
   Consolidation of the Huntsville, AL, Processing and Distribution Facility (Report Number NO-AR-14-005, dated May
5, 2014).

                                                        4
Lack of Service Standard Change Information in Area
 Mail Processing Feasibility Studies                                          NO-MA-15-001



        Appendix A: Details of Review of Area Mail Processing Feasibility Studies

                                                                              Service Standard
                                                                                  Impacts
            Consolidating Facility                         Gaining Facility
                                                                               Worksheets11
                                                                                 Completed
        1    Huntsville, AL, P&DF              Birmingham, AL, P&DC                  No
        2    Tucson, AZ, P&DC                  Phoenix, AZ, P&DC                     No
        3    Eureka, CA, Customer
             Service Mail Processing
             Center (CSMPC)                    Medford, OR, CSMPC                    No
        4    Industry, CA, P&DC                Santa Ana, CA, P&DC                   No
                                               Anaheim, CA, P&DC                     No
        5    North Bay, CA, P&DC               Oakland, CA, P&DC                     No
        6    Redding, CA, CSMPC                West Sacramento, CA, P&DC             No
        7    Colorado Springs, CO,
             P&DC                              Denver, CO, P&DC                      No
        8    Southern Connecticut              Hartford, CT, P&DC
             P&DC                              Springfield, MA, National             No
                                               Distribution Center (NDC)             No
        9    Stamford, CT, P&DC                Westchester, NY, P&DC                 No
       10    Gainesville, FL, P&DC             Jacksonville, FL, P&DC                No
       11    Manasota, FL, P&DC                Fort Myers, FL, P&DC                  Yes
                                               Tampa, FL, P&DC                       Yes
       12    Mid-Florida P&DC                  Orlando, FL, P&DC                     No
       13    Athens, GA, P&DF                  North Metro, GA, P&DC                 No
       14    Augusta, GA, P&DF                 Columbia, SC, P&DC                    No
                                               Macon, GA, P&DC                       No
       15    Pocatello, ID, CSMPC              Salt Lake City, UT, P&DC              No
       16    Fox Valley, IL, P&DC              South Suburban, IL, P&DC              No
       17    Gary, IN, P&DC                    South Suburban, IL, P&DC              No
       18    Kokomo, IN, P&DF                  Indianapolis, IN, P&DC                No
       19    Lafayette, IN, P&DF               Indianapolis, IN, P&DC                No
       20    Muncie, IN, P&DF                  Indianapolis, IN, P&DC                No
       21    South Bend, IN, P&DC              Fort Wayne, IN, P&DC                  No
       22    Salina, KS, P&DF                  Wichita, KS, P&DC                     No
       23    Campton, KY, CSMPC                Louisville, KY, P&DC                  No
       24    Lexington, KY, P&DC               Louisville, KY, P&DC                  No
                                               Knoxville, TN, P&DC                   No
       25    Paducah, KY, P&DF                 Evansville, IN, P&DC                  No




11
     We reviewed 95 service standard impacts worksheets.

                                                           5
Lack of Service Standard Change Information in Area
 Mail Processing Feasibility Studies                                     NO-MA-15-001




                                                                            Service
                                                                           Standard
              Consolidating Facility                  Gaining Facility     Impacts
                                                                          Worksheets
                                                                          Completed
      26    New Orleans, LA, P&DC            Baton Rouge, LA, P&DC            No
      27    Central Mass, MA, P&DC           Boston, MA, P&DC                 No
                                             Middlesex Essex, MA, P&DC        No
      28    Middlesex Essex, MA,
            P&DC                             Boston, MA, P&DC                 No
      29    Northwest Boston, MA,            Boston, MA, P&DC                 No
            P&DF                             Middlesex Essex, MA, P&DC        No
      30    Southern MD, P&DC                Suburban, MD, P&DC               No
      31    Iron Mountain, MI, P&DF          Green Bay, WI, P&DC              No
      32    Kalamazoo, MI, P&DC              Grand Rapids, MI, P&DC           No
      33    Lansing, MI, P&DC                Michigan Metroplex P&DC          No
                                             Grand Rapids, MI, P&DC           No
      34    Bemidji, MN, CSMPC               Minneapolis, MN, P&DC            No
      35    Duluth, MN, P&DF                 Saint Paul, MN, P&DC             No
      36    Mankato, MN, P&DF                Minneapolis, MN, P&DC            No
      37    Saint Cloud, MN, P&DF            Minneapolis, MN, P&DC            No
      38    Cape Girardeau, MO,
            P&DF                             St. Louis, MO, P&DC              No
      39    Springfield, MO, P&DF            Kansas City, MO, P&DC            No
      40    Grenada, MS, CSMPC               Jackson, MS, P&DC                No
      41    Gulfport, MS, P&DF               Mobile, AL, P&DC                 No
      42    Hattiesburg, MS, CSMPC           Mobile, AL, P&DC                 No
      43    Asheville, NC, P&DF              Greenville, SC, P&DC             No
      44    Fayetteville, NC, P&DC           Charlotte, NC, P&DC              No
                                             Raleigh, NC, P&DC                No
      45    Rocky Mount, NC, P&DF            Raleigh, NC, P&DC                No
      46    Minot, ND, CSMPC                 Bismarck, ND, P&DC               No
      47    Grand Island, NE, P&DF           Omaha, NE, P&DC                  No
      48    Norfolk, NE, P&DF                Omaha, NE, P&DC                  No
      49    Elko, NV, CSMPC                  Salt Lake City, UT, P&DC         No
      50    Mid-Hudson, NY, P&DC             Albany, NY, P&DC                 No
      51    Queens, NY, P&DC                 Brooklyn, NY, P&DC               No
      52    Akron, OH, P&DC                  Cleveland, OH, P&DC              No
      53    Dayton, OH, P&DC                 Columbus, OH, P&DC               Yes
      54    Toledo, OH, P&DF                 Michigan Metroplex P&DC          No
                                             Detroit, MI, P&DC                No
                                             Columbus, OH, P&DC               No
      55    Youngstown, OH, P&DF             Cleveland, OH, P&DC              No
      56    Tulsa, OK, P&DC                  Oklahoma City, OK, P&DC          No
      57    Bend, OR, CSMPC                  Portland, OR, P&DC               No
      58    Eugene, OR, P&DF                 Portland, OR, P&DC               No



                                                      6
Lack of Service Standard Change Information in Area
 Mail Processing Feasibility Studies                                     NO-MA-15-001




                                                                            Service
                                                                           Standard
               Consolidating Facility                 Gaining Facility     Impacts
                                                                          Worksheets
                                                                          Completed
      59    Pendleton, OR, CSMPC              Portland, OR, P&DC              No
      60    Erie, PA, P&DF                    Pittsburgh, PA, P&DC            No
                                              Rochester, NY, P&DC             No
      61    Lancaster, PA, P&DF               Harrisburg, PA, P&DC            No
      62    Scranton, PA, P&DF                Lehigh Valley, PA, P&DC         No
      63    Florence, SC, P&DF                Columbia, SC, P&DC              No
      64    Dakota Central, SD, P&DF          Sioux Falls, SD, P&DC           No
      65    Chattanooga, TN, P&DC             Nashville, TN, P&DC             No
                                              Atlanta, GA, P&DC               No
      66    Abilene, TX, CSMPC                Austin, TX, P&DC                No
                                              Midland, TX, P&DC               No
      67    Corpus Christi, TX, P&DC          San Antonio, TX, P&DC           No
      68    Provo, UT, CSMPC                  Salt Lake City, UT, P&DC
                                              Grand Junction, CO,             No
                                              CSMPC                           No
                                              Las Vegas, NV, P&DC             No
      69    Norfolk, VA, P&DC                 Richmond, VA, P&DC              No
      70    Roanoke, VA, P&DC                 Greensboro, NC, P&DC            No
      71    Tacoma, WA, P&DC                  Seattle, WA, P&DC               No
      72    Wenatchee, WA, CSMPC              Spokane, WA, P&DC               No
      73    Eau Claire, WI, P&DF              Saint Paul, MN, P&DC            No
      74    La Crosse, WI, P&DF               Saint Paul, MN, P&DC            No
      75    Madison, WI, P&DF                 Milwaukee, WI, P&DC             Yes
      76    Wausau, WI, P&DF                  Green Bay, WI, P&DC             No
      77    Rock Springs, WY,
            CSMPC                             Salt Lake City, UT, P&DC        No
      78    Beaumont, TX, P&DC                North Houston, TX, P&DC         No
      79    Houston, TX, P&DC                 North Houston, TX, P&DC         No
     Source: Postal Service Network Operations AMP.




                                                      7
Lack of Service Standard Change Information in Area
 Mail Processing Feasibility Studies                           NO-MA-15-001



                           Appendix B: Management’s Comments




                                                      8
Lack of Service Standard Change Information in Area
 Mail Processing Feasibility Studies                      NO-MA-15-001




                                                      9
Lack of Service Standard Change Information in Area
 Mail Processing Feasibility Studies                       NO-MA-15-001




                                                      10
